AO 245D (Rev. TNED 10/2019) Judgment in a Criminal Case for Revocations

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE CHATTANOOGA DIVISION
UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE
(For Revocation of Probation or Supervised Release)

v.
Case Number: 4:07-cr-9
JONATHAN M. BRINDA
USM#41762-074

J. Damon Burk
Defendant’s Attorney

THE DEFENDANT:
☐ admitted guilt to violation of condition(s)
☒ was found in violation of condition(s)

of the term of supervision.
after denial of guilt.

ACCORDINGLY, the court has adjudicated that the defendant is guilty of the following violations :
Violation Number
Nature of Violation
***SEE PETITION FOR VIOLATIONS***

The defendant is sentenced as provided in pages 2 through 5
Reform Act of 1984.
☐

Date Violation Concluded

of this judgment. The sentence is imposed pursuant to the Sentencing

The defendant has not violated condition(s) and is discharged as to such violation(s) condition.

IT IS ORDERED that the defendant shall notify the United States Attorney for this district within 30 days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant shall notify the court and the United States attorney of any material change in the
defendant's economic circumstances.
November 20, 2020
Date of Imposition of Judgment

/s/ Travis R. McDonough
Signature of Judicial Officer

Travis R. McDonough, Chief United States District Judge
Name & Title of Judicial Officer

November 23, 2020
Date

Case 4:07-cr-00009-TRM-CHS Document 89 Filed 11/24/20 Page 1 of 5 PageID #: 360

AO 245D (Rev. TNED 10/2019) Judgment in a Criminal Case for Revocations

DEFENDANT:
CASE NUMBER:

JONATHAN M. BRINDA
4:07-cr-9

Judgment - Page 2 of 5

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total term of 9 months.

☐ The court makes the following recommendations to the Bureau of Prisons:

☒ The defendant is remanded to the custody of the United States Marshal.
☐ The defendant shall surrender to the United States Marshal for this district:
☐ at
☐ a.m. ☐ p m. on
☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
☐ before 2 p.m. on
.
☐ as notified by the United States Marshal.
☐ as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
to
,
at
,
with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

Case 4:07-cr-00009-TRM-CHS Document 89 Filed 11/24/20 Page 2 of 5 PageID #: 361

AO 245D (Rev. TNED 10/2019) Judgment in a Criminal Case for Revocations

DEFENDANT:
CASE NUMBER:

JONATHAN M. BRINDA
4:07-cr-9

Judgment - Page 3 of 5

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of 10 years.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

5.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.
☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)
You
must
make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentencing
☐
of restitution. (check if applicable)
☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)

6.

☒

7.

☐

4.

You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et
seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the
attached page.

Case 4:07-cr-00009-TRM-CHS Document 89 Filed 11/24/20 Page 3 of 5 PageID #: 362

AO 245D (Rev. TNED 10/2019) Judgment in a Criminal Case for Revocations

DEFENDANT:
CASE NUMBER:

JONATHAN M. BRINDA
4:07-cr-9

Judgment - Page 4 of 5

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are
imposed because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed
by probation officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.

2.
3.
4.
5.

6.
7.

8.

9.
10.

11.
12.

13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of
your release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a
different time frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how
and when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission
from the court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your
living arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the
change. If notifying the probation officer in advance is not possible due to unanticipated circumstances, you must notify the
probation officer within 72 hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation
officer to take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses
you from doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation
officer excuses you from doing so. If you plan to change where you work or anything about your work (such as your position
or your job responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the
probation officer at least 10 days in advance is not possible due to unanticipated circumstances, you must notify the probation
officer within 72 hours of becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has
been convicted of a felony, you must not knowingly communicate or interact with that person without first getting the
permission of the probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything
that was designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as
nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant
without first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer
may require you to notify the person about the risk and you must comply with that instruction. The probation officer may
contact the person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the mandatory, standard, and any special conditions specified by the court and has
provided me with a written copy of this judgment containing these conditions. For further information regarding these conditions, see
Overview of Probation and Supervised Release Conditions, available at: www.uscourts.gov.

Defendant’s Signature

Date

Case 4:07-cr-00009-TRM-CHS Document 89 Filed 11/24/20 Page 4 of 5 PageID #: 363

AO 245D (Rev. TNED 10/2019) Judgment in a Criminal Case for Revocations

DEFENDANT:
CASE NUMBER:

JONATHAN M. BRINDA
4:07-cr-9

Judgment - Page 5 of 5

SPECIAL CONDITIONS OF SUPERVISION
1. The defendant shall participate in a program of testing and/or treatment for drug and/or alcohol abuse, as directed by the probation
officer, until such time as the defendant is released from the program by the probation officer.
2. The defendant shall abstain from the use and possession of alcohol, and shall not frequent bars, clubs, or any other establishment
where alcohol is the main business.
3. The defendant shall participate in a program of mental health treatment, as directed by the probation officer, until such time as the
defendant is released from the program by the probation officer. The defendant shall waive all rights to confidentiality regarding
mental health treatment in order to al low release of information to the supervising United States Probation Officer and to authorize
open communication between the probation officer and the mental health treatment provider.
4. The defendant shall comply with the special conditions for sex offenders as adopted by this Court in Standing Order SO-15- 06.
5. The defendant shall submit his person, residence, office, or vehicle to a search conducted by a United States Probation Officer, at a
reasonable time and in a reasonable manner, based upon reasonable suspicion of contraband or evidence of a violation of a condition
of release. The defendant shall warn anyone with whom he shares a residence that the premises may be subject to searches pursuant to
this condition.

Case 4:07-cr-00009-TRM-CHS Document 89 Filed 11/24/20 Page 5 of 5 PageID #: 364

